(""1
\"'~	
            DEPARTMENT OF HEALTH & HUMAN SERVICES	
                                                                                    Office of Inspector General
                                                                                    Offices of Audit Services



                                                                                    Region VII

                                                                                    601 East 12th Street

                                                                                    Room 284A

                                                                                    Kansas City, Missouri 64106

        October 2, 2008

        Report Number: A-07-07-00240

        Mr. Steve D. Cox, CPA, CEBS
        Director of Benefits Finance
        Nationwide Mutual Insurance Company
        One Nationwide Plaza
        Columbus, Ohio 43125-2220

        Dear Mr. Cox:

        Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
        General (OIG), final report entitled "Review of Pension Costs Claimed for Medicare
        Reimbursement by Nationwide Mutual Insurance Company for Fiscal Years 1987 Through
        2002." We will forward a copy of this report to the HHS action official noted on the following
        page for review and any action deemed necessary.

        The HHS action official will make final determination as to actions taken on all matters reported.
        We request that you respond to this official within 30 days from the date of this letter. Your
        response should present any comments or additional information that you believe may have a
        bearing on the final determination.

        Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
        Public Law 104-231, OIG reports generally are made available to the public to the extent the
        information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
        will be posted on the Internet at http://oig.hhs.gov.

        If you have any questions or comments about this report, please do not hesitate to call me at
        (816) 426-3591, or your staff may contact Jenenne Tambke, Audit Manager, at (573) 893-8338,
        extension 21, or through e-mail at Jenenne.Tambke@oig.hhs.gov. Please refer to report number
        A-07-07-00240 in all correspondence.

                                                             Sincerely,




                                                             Patrick J. Cogley
                                                             Regional Inspector General
                                                              for Audit Services


        Enclosure
Page 2 - Mr. Steve D. Cox, CPA, CEBS

Direct Reply to UUS Action Official:

Ms. Nanette Foster Reilly
Consortillm Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


   REVIEW OF PENSION COSTS
    CLAIMED FOR MEDICARE
      REIMBURSEMENT BY
     NATIONWIDE MUTUAL
   INSURANCE COMPANY FOR
        FISCAL YEARS
     1987 THROUGH 2002




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-07-07-00240
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND


Nationwide Mutual Insurance Company (Nationwide) administered Medicare Part B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated June 30, 2002. The effective closing date for
the Medicare segment was June 30, 2002.

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation n1ethod if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that Nationwide claimed for
Medicare reimbursement for fiscal years (FY) 1987 through 2002.

SUMMARY OF FINDING

Nationwide claimed $415,080 of unallowable Medicare pension costs for FYs 1987 through
2002. This occurred primarily because Nationwide used the Financial Accounting Standard No.
87 expense in calculating allowable pension costs instead of allocating or separately computing
pension costs in accordance with CAS 412 and 413, as required by the Medicare contract.
Consequently, Nationwide clain1ed $11,719,064 of pension costs for Medicare reimbursement;
however, we calculated that allowable pension costs during this period totaled $11,303,984.

RECOMMENDATION

We recon1mend that Nationwide revise its Final Administrative Cost Proposals for FYs 1987
through 2002 or otherwise credit CMS to reduce its claimed pension costs by $415,080.

AUDITEE COMMENTS

In written comn1ents on our draft report, Nationwide did not address our recommendation.
Nationwide disagreed with our finding, calculations, valuation methods, and the applicability of
some of the criteria we used. Nationwide's comments are included in their entirety as
Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Nationwide's con1ments, we made a revision to our calculations and the related
recommendation. Our finding and recommendation, as revised, are valid.
                              TABLE OF CONTENTS




INTRODUCTION                                                1


 BACKGROUND                                                 1

  Nationwide                                                1

  Medicare Reinlbursement of Pension Costs                  1

  Federal Requirements                                      1


 OBJECTIVE, SCOPE, AND METHODOLOGy                          2

  Objective                                                 2

  Scope                                                     2

  Methodology                                               2


FINDING AND RECOMMENDATION                                  3


 UNAI-ILOWABLE PENSION COSTS                                3


 RECOMMENDATION                                             4


 AUDITEE COMMENTS                                           4


 OFFICE OF INSPECTOR GENERAL RESPONSE                       4



APPENDIXES

  A - NATIONWIDE MUTlJAL INSURANCE COMPANY STATEMENT OF

      ALLOWABLE PENSION COSTS FOR FISCAL YEARS 1987-2002


  B - AUDITEE COMMENTS




                                         11
                                       INTRODUCTION


BACKGROUND

Nationwide

Nationwide Mutual Insurance Company (Nationwide) administered Medicare Part B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated June 30, 2002. The effective closing date for
the Medicare segment was June 30, 2002.

Medicare Reimbursement of Pension Costs

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

Federal Requirements

The Medicare contracts address the determination and allocation of pension costs. Appendix B,
section XVI of the contracts state: "The calculation of and accounting for pension costs charged
to this agreement/contract are governed by the Federal Acquisition Regulation and Cost
Accounting Standards 412 and 413."

FAR 31.205-60) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 regulates the determination and measurement of pension cost components. It also
regulates the assignment of pension costs to appropriate accounting periods.

CAS 413 regulates the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that Nationwide claimed for
Medicare reimbursement for FYs 1987 through 2002.

Scope

We reviewed pension costs that Nationwide claimed for Medicare reimbursement on its Final
Administrative Cost Proposals (FACP) for FYs 1987 througl1 2002. Achieving the objective did
not require that we review Nationwide's overall internal control structure. However, we did
review the internal controls related to the pension costs claimed for Medicare reimbursement to
ensure that the pension costs were allocable in accordance with the CAS and allowable in
accordance with the FAR.

We performed fieldwork at Nationwide in Columbus, Ohio.

Methodology

We identified Nationwide's CAS pension costs for the total company and the Medicare segment.
We also determined the extent to which Nationwide funded CAS pension costs with
contributions to the pension trust fund and accumulated prepayment credits. We based the
calculations on separately con1puted CAS pension costs for the Medicare segment and total
con1pany CAS pension costs. The CMS Office of the Actuary calculated the allocable CAS
pension costs based on Nationwide's historical practices and on the results of our segmentation
review, "Review of the Qualified Pension Plan at Nationwide Mutual Insurance Company, a
Terminated Medicare Contractor, for the Period March 1, 1986, to June 30, 2002"
(A-07-07-00239). Appendix A contains details on the pension costs and contriblltions.

In performing our review, we used information that Nationwide's actuarial consulting firm and
internal actuarial department provided. The information included assets, liabilities, normal costs,
contributions, benefit payments, investment earnings, and administrative expenses. We
examined Nationwide's accounting records, pension plan documents, annual actuarial valuation
reports, and Department of Labor/Internal Revenue Service Form 5500s.

We conducted this performa11ce audit in accordance with generally accepted government
auditing standards (GAGAS). Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our finding and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our finding and conclusions based on our audit objective.




                                                2

                                FINDING AND RECOMMENDATION


UNALLOWABLE PENSION COSTS


Nationwide claimed $415,080 of unallowable Medicare pension costs for FYs 1987 through
2002. 1

For FYs 1987 through 2002, Nationwide claimed pension costs of$11,719,064 for Medicare
rein1bursement. 2 We calculated the allowable costs based on separately computed CAS pension
costs for the Medicare segment and the total company. We determined that the allowable CAS
pension costs during this period totaled $11,303,984.

We compared allowable CAS pension costs with the pension costs claimed on Nationwide's
FACPs, as shown in tl1e table below.

                                         Cost Claimed Variance

              Fiscal Year        Per Nationwide                Per Audit           Difference
                  1987                 $468,953                 $468,953                    $0
                  1988                   291,020                  152,735             138,285
                  1989                   441,528                  446,033               (4,505)
                  1990                   549,410                1,002,027            (452,617)
                  1991                   914,901                1,209,011            (294,110)
                  1992                   946,597                1,153,031            (206,434)
                  1993                 1,242,912                1,275,679              (32,767)
                  1994                 1,618,397                1,730,290            (111,893)
                  1995                 1,644,417                1,916,384            (271,967)
                  1996                 1,241,707                1,448,849            (207,142)
                  1997                   986,536                  456,197             530,339
                  1998                   675,512                   44,795             630,717
                  1999                   697,174                                      697,174
                  2000                                                   °
                                                     °                   °                   0
                  2001
                  2002                              °0                   °                   °
                Total                $11,719,064              $11,303,984°           $415,080°




I Because the Medicare contract was terminated June 30, 2002, the calculation of the allowable FY 2002 costs
covered the period October 1, 2001, through June 30, 2002.

2The  pension costs that Nationwide claimed included only the actual costs for which Nationwide was reimbursed.
For FY 2002, Nationwide calculated $722,157 of allowable pension costs; however, it has not claimed those costs
for reimbursement. Based upon this audit, we determined that the allowable costs were zero.



                                                         3

The Medicare contracts required Nationwide to allocate or separately calculate CAS pension
costs for Medicare reimbursement. However, Nationwide did not base its clainl for Medicare
reimbursement on either allocated or separately calculated CAS pension costs. Instead, it based
its clainl on the Financial Accounting Standard No. 87 expense developed for financial reporting
purposes. As a result, Nationwide claimed $415,080 of unallowable pension costs.

RECOMMENDATION

We recommend that Nationwide revise its FACPs for FYs 1987 through 2002 or otherwise credit
CMS to reduce its claimed pension costs by $415,080.

AUDITEE COMMENTS

In written comments on our draft report, Nationwide did not address our recommendation.
Nationwide disagreed with our finding, calculations, valuation methods, and the applicability of
some of the criteria we used.

A sllmmary of Nationwide's comments follows:

   •	 Nationwide did not agree with the determination of the FYs 1987 and 1988 allowable
      pension costs. Nationwide stated that its "good faith effort to comply" with claiming
      pension costs for periods prior to FY 1988 did not require Nationwide to claim pension
      costs on a segmented basis.

   •	 Nationwide did not agree with the amount of pension costs claimed by Nationwide for
      FY 1995. Nationwide stated that the pension cost claimed by Nationwide for FY 1995
      was $1,644,417 rather than, as our draft report specified, $1,644,471.

   •	 Nationwide did not agree that the 2002 pension costs were $0. Nationwide stated that we
      calculated the 2002 pension costs to be $0 because we did not recognize the 2002
      contriblltions. Nationwide calculated the 2002 pension costs to be $722,157.

Nationwide questioned whether our audit approach complied with the independence
requirements imposed by GAGAS. Specifically, Nationwide stated that we engaged the Office
of the Actuary within CMS (a party to the Medicare contracts) to independently calculate
Nationwide's pension costs and that we accepted those calculations as correct.

Nationwide's comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Nationwide's comments, we made a revision to our calculations and the related
recomnlendation. Our finding and recommendation, as revised, are valid.




                                                4

With respect to Nationwide's more specific comments:

   •	 After further review of Nationwide's claim of pension costs for FYs 1987 and 1988, we
      partially agree with Nationwide. Nationwide used a "good faith effort" to comply with
      claiming pension costs. In addition, the Medicare contract did not require segmented
      pension costs until the first plan year starting in FY 1988. Therefore, the $621,688 in
      pension costs claimed by Nationwide fron1 October 1, 1986, through February 1, 1988, is
      allowable. However, the FY 1988 pension costs associated with the period March 1,
      1988, through September 30, 1988, were required to be computed using separately
      computed CAS pension costs. Nationwide did not fund these costs; therefore, the
      $138,285 in pension costs claimed by Nationwide from March 1, 1988, through
      September 30, 1988, were unallowable.

   •	 We agree that the pension cost claimed by Nationwide for FY 1995 was $1,644,417.

   •	 We disagree with Nationwide's assertion that pension costs for FY 2002, totaling
      $722,157, were allowable. We continue to find that the FY 2002 pension costs were
      zero, as a result of the adjustments made to the Medicare segment assets, adjustments that
      we discussed in our segmentation review (A-07-07-00239). These adjustments resulted
      in an increase in the Medicare segment actuarial value of assets used to calculate the
      assignable pension costs. Therefore, t11e Medicare segment's actuarial value of assets
      exceeded the Medicare segn1ent's actuarial accrued liabilities plus current normal cost,
      resulting in the assignable pension costs for FY 2002 being zero. In addition, since there
      were sufficient assets to cover the actuarial accrued liabilities plus current normal cost,
      the handling of the 2002 contribution had no impact on the FY 2002 allowable costs.

With respect to Nationwide's concerns as to the independence requirements that GAGAS
in1poses on the audit process, GAGAS allow the use of specialists (including actuaries) to assist
in performing audits. We performed specific tests to determine that the CMS Office of the
Actuary was, in fact, independent. Furthermore, we critically reviewed the actuary's
calculations. Our review complied with all GAGAS reqllirements.




                                                5

APPENDIXES

                   NATIONWIDE MUTUAL INSURANCE COMPANY                                    APPENDIX A
                   STATEMENT OF ALLOWABLE PENSION COSTS                                     Page 1 ofl0
                         FOR FISCAL YEARS 1987-2002

                                                 Total              Other            Medicare
Date              Description                   Company            Se2ment           Se2ment

1987      FY Allowable Pension Costs     lL    NA                NA                    468,953



                                                 Total              Other            Medicare
Date              Description                   Company            Seement           Seement

 1989     Contributions                  21                 $0                $0            $0
7.000/0   Discount for Interest          31                  0                 0             0
3/1/88    Present Value Contributions    41                  0                 0             0
          Prepayment Credit              51                  0                 0             0
          Present Value of Funding       61                  0
                                                                               °             °
3/1/88    CAS Funding Target             7/         28,049,734        27,010,966     1,038,768
          Percentage Funded              8/                                0.00%         0.00%
          Funded Pension Cost            91                                     0
          Allowable Interest            101                                     0            °
          Allocable Pension Cost        ill                                     0            °
 1988     Fiscal Year Pension Cost      121                                     0            °
                                                                                       152,735
          Medicare LOB* Percentage      .ill                               0.000/0     100.00%

          Allowable Pension Cost        141          $152,735                 $0      $152,735




 1989     Contributions                         $17,564,538       $16,922,794         $641,744
8.000/0   Discount for Interest                  (1,059,891)       ( 1,021 , 166)      (38,725)
3/1/89    Present Value Contributions            16,504,647        15,901,628          603,019
          Prepayment Credit
          Present Value of Funding                           °
                                                    16,504,647                 °
                                                                      15,901,628
                                                                                             0
                                                                                       603,019

3/1/89    CAS Funding Target                        22,935,361        22,097,387       837,974
          Percentage Funded                                               71.96%        71.960/0
          Funded Pension Cost                                         15,901,280       603,006
          Allowable Interest                                             901,073        34,170
          Allocable Pension Cost        ~                             16,802,353       637,176
 1989     Fiscal Year Pension Cost      161                           11,761,647       446,023
          Medicare LOB Percentage                                          0.00%       100.00%

          Allowable Pension Cost        17/          $446,023                 $0      $446,023
                  NATIONWIDE MUTUAL INSURANCE COMPANY                            APPENDIX A
                  STATEMENT OF ALLOWABLE PENSION COSTS                              Page 2 of 10
                        FOR FISCAL YEARS 1987-2002



                                              Total          Other         Medicare
Date             DescriDtion                 Company        Se2ment        Se2ment

 1990    Contributions                       $36,952,880    $35,847,845    $1,105,035
8.00%    Discount for Interest                (2,737,250)    (2,655,396)      (81,854)
1/1/90   Present Value Contributions          34,215,630     33,192,449     1,023,181
         Prepayment Credit
         Present Value of Funding                      °
                                              34,215,630              °
                                                             33,192,449             °
                                                                            1,023,181

1/1/90   CAS Funding Target                   25,314,191     24,291,010     1,023,181
         Percentage Funded                                      100.00%       100.00%
         Funded Pension Cost                                 24,291,010     1,023,181
         Allowable Interest                                   1,376,491        57,980
         Allocable Pension Cost                              25,667,501     1,081,161
1990     Fiscal Year Pension Cost      18/                   24,291,332     1,002,024
         Medicare LOB Percentage                                  0.00%       100.000/0

         Allowable Pension Cost               $1,002,024             $0    $1,002,024




 1991    Contributions                       $35,446,721    $34,551,737     $894,984
8.00%    Discount for Interest                (2,607,303)    (2,541,472)      (65,831)
1/1/91   Present Value Contributions          32,839,418     32,010,265       829,153
         Prepayment Credit                     9,613,554      9,238,065       375,489
         Present Value of Funding             42,452,972     41,248,330     1,204,642

1/1/91   CAS Funding Target                   30,842,173     29,637,531     1,204,642
         Percentage Funded                                      100.00%       100.00%
         Funded Pension Cost                                 29,637,531     1,204,642
         Allowable Interest                                   1,155,970        46,985
         Allocable Pension Cost                              30,793,501     1,251,627
1991     Fiscal Year Pension Cost      19/                   29,512,001     1,209,011
         Medicare LOB Percentage                                  0.00%       100.00%

         Allowable Pension Cost               $1,209,011             $0    $1,209,011
                   NATIONWIDE MUTUAL INSURANCE COMPANY                       APPENDIX A
                   STATEMENT OF ALLOWABLE PENSION COSTS                        Page 3 of 10
                         FOR FISCAL YEARS 1987-2002



                                         Total          Other          Medicare
Date              Description           Company        Se2ment         Se2ment

 1992     Contributions                          $0             $0             $0
8.000/0   Discount for Interest                   0              0              0
1/1/92    Present Value Contributions             0              0              0
          Prepayment Credit               1,734,286        621,843      1,112,443
          Present Value of Funding        1,734,286        621,843      1,112,443

1/1/92    CAS Funding Target              1,734,286        621,843      1,112,443
          Percentage Funded                                100.00%        100.00%
          Funded Pension Cost                              621,843      1,112,443
          Allowable Interest                                     0              0
          Allocable Pension Cost                           621,843      1,112,443
 1992     Fiscal Year Pension Cost                       8,164,758      1,147,239
          Medicare LOB Percentage                            0.00%        100.00%

          Allowable Pension Cost         $1,147,239             $0     $1,147,239




 1993     Contributions                 $38,090,934    $37,209,843      $881,091
8.00%     Discount for Interest          (2,418,069)    (2,362, 136)      (55,933)
1/1/93    Present Value Contributions    35,672,865     34,847,707        825,158
          Prepayment Credit              11,669,806     11,229,117        440,689
          Present Value of Funding       47,342,671     46,076,824      1,265,847

1/1/93    CAS Funding Target             33,520,630     32,254,783      1,265,847
          Percentage Funded                                100.00%        100.00%
          Funded Pension Cost                           32,254,783      1,265,847
          Allowable Interest                             1,191,454         46,759
          Allocable Pension Cost                        33,446,237      1,312,606
1993      Fiscal Year Pension Cost                      25,240,139      1,262,565
          Medicare LOB Percentage                            0.000/0      100.00%

          Allowable Pension Cost         $1,262,565             $0     $1,262,565
                  NATIONWIDE MUTUAL INSURANCE COMPANY                       APPENDIX A
                  STATEMENT OF ALLOWABLE PENSION COSTS                         Page 4 of 10
                        FOR FISCAL YEARS 1987-2002



                                        Total          Other          Medicare
Date             Description           Company        Seement         Seement

 1994    Contributions                 $61,575,528    $60,270,870     $1,304,658
7.00%    Discount for Interest          (2,802,089)    (2,742,719)       (59,370)
1/1/94   Present Value Contributions    58,773,439     57,528,151      1,245,288
         Prepayment Credit              14,927,804     14,386,796        541,008
         Present Value of Funding       73,701,243     71,914,947      1,786,296

1/1/94   CAS Funding Target             49,288,501     47,502,205      1,786,296
         Percentage Funded                                100.00%        100.00%
         Funded Pension Cost                           47,502,205      1,786,296
         Allowable Interest                             1,578,814         59,370
         Allocable Pension Cost                        49,081,019      1,845,666
1994     Fiscal Year Pension Cost                      45,172,324      1,712,401
         Medicare LOB Percentage                            0.00%        100.000/0

         Allowable Pension Cost         $1,712,401             $0     $1,712,401




 1995    Contributions                 $69,866,725    $68,771 ,354    $1,095,371
7.00%    Discount for Interest          (4,460,109)    (4,390,183)       (69,926)
1/1/95   Present Value Contributions    65,406,616     64,381,171      1,025,445
         Prepayment Credit              26,121,633     25,283,200        838,433
         Present Value of Funding       91,528,249     89,664,371      1,863,878

1/1/95   CAS Funding Target             58,069,746     56,205,868      1,863,878
         Percentage Funded                                100.000/0      100.000/0
         Funded Pension Cost                           56,205,868      1,863,878
         Allowable Interest                             1,533,249         50,845
         Allocable Pension Cost                        57,739,117      1,914,723
1995     Fiscal Year Pension Cost                      55,574,593      1,897,459
         Medicare LOB Percentage                            0.000/0      100.000/0

         Allowable Pension Cost         $1,897,459             $0     $1,897,459
                   NATIONWIDE MUTUAL INSURANCE COMPANY                       APPENDIX A
                   STATEMENT OF ALLOWABLE PENSION COSTS                        Page 5 of 10
                         FOR FISCAL YEARS 1987-2002



                                         Total           Other         Medicare
Date              Description           Company         Seement        Seement

 1996     Contributions                 $54,252,647     $53,895,678     $356,969
7.00%     Discount for Interest          (3,446,311 )    (3,423,635)     (22,676)
1/1/96    Present Value Contributions    50,806,336      50,472,043      334,293
          Prepayment Credit              35,800,598      35,216,764      583,834
          Present Value of Funding       86,606,934      85,688,807      918,127

1/1/96    CAS Funding Target             56,299,415      55,381,288       918,127
          Percentage Funded                                 100.00%       100.00%
          Funded Pension Cost                            55,381,288       918,127
          Allowable Interest                                999,824        16,575
          Allocable Pension Cost                         56,381,112       934,702
1996      Fiscal Year Pension Cost                       56,720,613     1,179,707
          Medicare LOB Percentage                             0.00%       100.000/0

          Allowable Pension Cost         $1,179,707              $0    $1,179,707




 1997     Contributions                 $43,692,730     $43,624,301      $68,429
7.000/0   Discount for Interest          (2,856,116)     (2,851,643)      (4,473)
1/1/97    Present Value Contributions    40,836,614      40,772,658       63,956
          Prepayment Credit              32,429,046      32,323,640      105,406
          Present Value of Funding       73,265,660      73,096,298      169,362

1/1/97    CAS Funding Target             52,105,740      51,936,378      169,362
          Percentage Funded                                 100.00%      100.00%
          Funded Pension Cost                            51,936,378      169,362
          Allowable Interest                                972,465        3,171
          Allocable Pension Cost                         52,908,843      172,533
1997      Fiscal Year Pension Cost                       53,776,910      363,075
          Medicare LOB Percentage                             0.00%      100.00%

          Allowable Pension Cost           $363,075              $0     $363,075
                   NATIONWIDE MUTUAL INSURANCE COMPANY                      APPENDIX A
                   STATEMENT OF ALLOWABLE PENSION COSTS                       Page 6 of 10
                         FOR FISCAL YEARS 1987-2002



                                         Total          Other          Medicare
Date              Description           Company        Segment         Segment

 1998     Contributions                 $80,037,311    $80,037,311           $0
6.000/0   Discount for Interest          (4,516,823)    (4,516,823)           0
1/1/98    Present Value Contributions    75,520,488     75,520,488            0
          Prepayment Credit              22,641,114     22,641,114            0
          Present Value of Funding       98,161,602     98,161,602            0

1/1/98    CAS Funding Target             65,697,883     65,697,883             0
          Percentage Funded                                100.00%         0.00%
          Funded Pension Cost                           65,697,883             0
          Allowable Interest                             1,829,913             0
          Allocable Pension Cost                        67,527,796             0
1998      Fiscal Year Pension Cost                      63,873,058        43,133
          Medicare LOB Percentage                            0.000/0     100.00%

          Allowable Pension Cost           $43,133              $0       $43,133




 1999     Contributions                          $0             $0            $0
6.000/0   Discount for Interest                   0              0             0
1/1/99    Present Value Contributions             0              0             0
          Prepayment Credit                       0              0             0
          Present Value of Funding                0              0             0

1/1/99    CAS Funding Target                      0               0            0
          Percentage Funded                                  0.00%         0.00%
          Funded Pension Cost                                     0            0
          Allowable Interest                                      0            0
          Allocable Pension Cost                                  0            0
1999      Fiscal Year Pension Cost                      16,881,949             0
          Medicare LOB Percentage                            0.000/0     100.00%

          Allowable Pension Cost                $0              $0           $0
                   NATIONWIDE MUTUAL INSURANCE COMPANY                    APPENDIX A
                   STATEMENT OF ALLOWABLE PENSION COSTS                      Page 7 of 10
                         FOR FISCAL YEARS 1987-2002



                                         Total         Other         Medicare
Date              Description           Company       Se2ment        Se2ment

 2000     Contributions                       $0             $0             $0
6.000/0   Discount for Interest                0              0              0
1/1/00    Present Value Contributions          0              0              0
          Prepayment Credit                    0              0              0
          Present Value of Funding             0              0              0

1/1/00    CAS Funding Target                      0            0              0
          Percentage Funded                               0.000/0        0.00%
          Funded Pension Cost                                  0              0
          Allowable Interest                                   0              0
          Allocable Pension Cost                               0              0
2000      Fiscal Year Pension Cost                             0              0
          Medicare LOB Percentage                         0.000/0      100.000/0

          Allowable Pension Cost              $0             $0             $0




 2001     Contributions                       $0                $0          $0
6.000/0   Discount for Interest                0                 0           0
1/1/01    Present Value Contributions          0                 0           0
          Prepayment Credit                    0                 0           0
          Present Value of Funding             0                 0           0

1/1/01    CAS Funding Target                      0              0           0
          Percentage Funded                               0.00%          0.00%
          Funded Pension Cost                                 0              0
          Allowable Interest                                  0              0
          Allocable Pension Cost                              0              0
2001      Fiscal Year Pension Cost                            0              0
          Medicare LOB Percentage                         0.00%        100.00%

          Allowable Pension Cost              $0                $0          $0
                               NATIONWIDE MUTUAL INSURANCE COMPANY                                     APPENDIX A
                               STATEMENT OF ALLOWABLE PENSION COSTS                                       Page 8 of 10
                                     FOR FISCAL YEARS 1987-2002



                                                            Total               Other           Medicare
          Date                Description                  Company             Seement          Seement

          2002       Contributions                                  $0                 $0                $0
         6.00%       Discount for Interest                           0                  0                 0
         1/1/02      Present Value Contributions                     0                  0                 0
                     Prepayment Credit                      40,984,699         40,984,699                 0
                     Present Value of Funding               40,984,699         40,984,699                 0

          1/1/02     CAS Funding Target                     58,698,611         58,698,611                 0
                     Percentage Funded                                             69.820/0          0.00%
                     Funded Pension Cost                                       40,983,370                 0
                                                                                                          0
                     Allowable Interest
                     Allocable Pension Cost                                    40,983,370°                0
          2002       Fiscal Year Pension Cost                                  30,737,528                 0
                     Medicare LOB Percentage                                        0.000/0        100.000/0

                     Allowable Pension Cost                          $0                 $0               $0



        * Line of business.
FOOTNOTES

   li   We obtained the fiscal year (FY) 1987 allowable pension costs from documentation provided by
        Nationwide. The Medicare contract did not require separately computed pension costs until the
        first plan starting in FY 1988; therefore, we considered Nationwide's pension cost claimed for
        the Medicare segment to be allowable. It was Nationwide's choosen methodology not to claim
        indirect pension costs.

   2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue
      Service Form 5500 reports. The contributions included deposits made during the plan year and
      accrued contributions deposited after the end of the plan year but within the time allowed for
      filing tax returns. We determined the contributions allocated to the Medicare segment during the
      pension segmentation review (A-07-07-00239). The amounts shown for the Other segment
      represent the difference between the Total Company and the Medicare segment.

   3/ We subtracted the interest that is included in the contributions deposited after the beginning of
      the valuation year to discount the contributions back to their beginning-of-the-year value. For
      plan years 1987 through 1989, the plan year started on March 1, and for plans years 1990
      through 2002, the plan year started on January 1. For purposes of this Appendix, we computed
        the interest as the difference between the present value of contributions (at the valuation interest
        rate) and actual contribution amounts.
                          NATIONWIDE MUTUAL INSURANCE COMPANY                                     APPENDIX A
                          STATEMENT OF ALLOWABLE PENSION COSTS                                     Page 9 of 10
                                FOR FISCAL YEARS 1987-2002


 4/ The present value of contributions is the value of the contributions discounted from the date of
    deposit back to the first day of the plan year. For purposes of this Appendix, we deemed
    deposits made after the end of the plan year to have been made on the final day of the plan year,
    consistent with the method mandated by Employee Retirement Income Security Act.

 5/ A prepayment credit represents the accumulated value of premature funding from the previous
    year(s). A prepayment credit is created when contributions, plus interest, exceed the end-of-year
    Cost Accounting Standards (CAS) funding target. A prepayment credit may be carried forward,
    with interest, to fund future CAS pension costs.

 6/ The present value of funding represents the present value of contributions plus prepayment

    credits. This is the amount of funding that is available to cover the CAS funding target

    measured at the first day of the plan year for each year.


 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the

    funding requirement of the Federal Acquisition Regulation (FAR) 31.205-6U)(2)(i).


 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was
    funded during the plan year. Because any funding in excess of the CAS funding target is
    considered premature funding in accordance with CAS 412.50(c)(I) (as amended), the funded
    ratio may not exceed 100 percent. We computed the percentage funded as the present value of
    funding divided by the CAS funding target. For purposes of illustration, the percentage of
    funding has been rounded to four decimals.

 9/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent
    funded.

10/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in
    the same proportion as the interest on contributions bears to the present value of contributions.
    However, we limited the interest in accordance with FAR 31.205-6U)(2)(iii), which does not
    permit the allowable interest to exceed the interest that would accrue if the CAS funding target,
    less the prepayment credit, were funded in four equal installments deposited within 30 days of
    the end of the quarter.

ill The allocable CAS pension cost is the amount of pension cost that may be allocated for contract
    cost purposes.
                          NATIONWIDE MUTUAL INSURANCE COMPANY                                    APPENDIX A
                          STATEMENT OF ALLOWABLE PENSION COSTS                                    Page 100fl0
                                FOR FISCAL YEARS 1987-2002


12/ We converted the plan year (March 1 through February 28) allocable pension costs to a Federal
    fiscal year (FY) basis (October 1 through September 30). We calculated the FY pension costs as
    5/12 of the prior year's costs plus 7/12 of the current year's costs. Costs charged to the
    Medicare contract should consist of the Medicare segment's direct pension costs plus pension
    costs attributable to indirect Medicare operations.

13/ We calculated allowable pension costs of the Medicare and Other segment based upon the
    documentation provided by Nationwide. We determined that it was Nationwide's methodology
    to claim 100% of the allocable pension costs for the Medicare segment and to claim no portion
    of the other segment allocable pension costs. We used Nationwide's methodology to determine
    the allowable pension costs.

141 For FY 1988 allowable penson costs, we obtained the October 1987 through February 1988
    allowable pension costs of $152,735, from documentation provided by Nationwide. The
    Medicare contract did not required separately computed pension costs until the first plan starting
    in FY 1988; however, from March 1988 through Septenlber 1988 the allowable pension costs
    were zero.

151 Nationwide changed its plan year start date from March 1 to January 1, as of January 1, 1990.
    Therefore, the 1989 allocable pension costs were for only a 10-month period.

161 The 1989 allocable pension costs were for a 10-month period. To calculate the FY 1989
    allocable pension costs, we calculated the FY pension costs as 5/12 of the prior year's costs plus
    7/10 of the current year's costs.

17/ We computed the allowable Medicare pension cost as the FY pension cost multiplied by the
    Medicare line of business percentage.

I8/ As stated above in footnote 16, the 1989 allocable pension costs were for a 10-month period. To
    calculate the FY 1990 allocable pension costs, we calculated the FY pension costs as 3/10 of the
    prior year's costs plus 9/12 of the current year's costs.

191 Starting with FY 1991, we converted the plan year (January 1 through December 31) allocable
    pension costs to an FY basis (October 1 through September 30). We calculated the FY pension
    costs as 1/4 of the prior year's costs plus 3/4 of the current year's costs.
                                                                                                         APPENDIXB
                                                                                                           Page 1 of20




D
On   Your Side'"

      April 3, 2008
                   Office of General Counsel




      Mr. Patrick J. Cogley
      Regional Inspector General for Audit Services
      601 East 1ttl Street
      Roon1284A
      Kansas City, Missouri 64106

      Dear !vtr. Cogley:


              Nationwide Mutual Insurance Company ("Nationwide") appreciates this opportunity to
      submit comtnents on draft audit reports prepared by the Office of the Inspector General ("OIG")
      related to the Nationwide Retirement Plan ('"Plan"). These draft audit reports, "Review of the
      Qualified Pension Plan at Nationwide Mutual Insurance Company, a Ternlinated Medicare
      Contractor. for the Period March 1, 1986, to June 30, 2002," No. A-07-07~00239 ("'Segmentation
      Report'l) and "Review of Pension Costs Claimed for Medicare Reimbursement by Nationwide
      Mutual Insurance Company for Fiscal Years 1987 through 2002," No. A-07-07-00240 C~Cost
      Report''). pertain to Nationwide's May 10, 2004 submission to the Centers for Medicaid and
      Medicare Services ("eMS"), \vhich Nationwide provided for settlement purposes
      ("'Submission"). I Because the issues raised in the Segmentation Report and the Cost Report
      (collectively, the "Draft Reports") are interrelated, this letter offers Nationwide's consolidated
      comments.

                                                 Background

              In July of 1966, Nationwide and the Secretary of Health, Education, and Welfare (which
      later became the Departluent of Health and Human Services; collectively "l-IHS") executed
      Agreement No. SSA-66-31 1-2 for certain Medicare Part B work. The parties subsequently
      executed alnended contracts in January/February of 1973 (Agreen1ent No. SSA..70-311-2), June
      of 1973 (Agreernent No. SSA-73-311-2). Decetnber of 1976 (Agreement No. SSA-76-31 ] -2),
      and [)ecenlber of 1978 (Agreement No. HCFA 78-311-2).




              A March 24, 2006 letter froin John McQuade (Pine Cliff Consulting Inc.) to Eric Shipley
      (CMS Office of the Actuary) provided additional infonnation on behalf of Nationwide
      concerning the retirelnent age assumption. Nationwide understands that there are no outstanding
      differences between the parties with regard to the issues discussed in that letter.


      One Nationwide Plaza                                      Counsel to all Nationwide companies and their
      ColumbUS, OH 43215-2220                                   subsidiaries and affiliates.
                                                                                                   APPENDIXB
                                                                                                    Page 2 of20




       In or around June 1981, Nationwide and ID-lS executed Contract No. HCFA 80-311-2.
The executed copy of that Contract provided by HHS does not incorporate Cost Accounting
Standard ("CAS") 413. HHS provided a separate, unsigned document, entitled "Appendix B
(10-80) (Intemlcdiary, Plan and Carrier Agreements) Principles of Reitnbursement of
Administrative Costs." Section 1118.7 of that document incorporated CAS 412 and 413. ~
                                                                                    2



        In 1986, Nationwide and HHS executed another Medicare Part B agreement, Contract
No. HCFA 84·311-2. Although the parties executed the Contract in 1986, Article XXVI states
that the tenn of the Contract was October 1, 1984 through September 30, 1985, and that it would
be autornatically rene\ved for one-year periods unless one of the parties provided written notice
not to renew the Contract. Appendix B to that Contract states that allowable and allocable costs
                                                                                           H
will be detennined in accordance with Federal Acquisition Regulation (HF AR Part 31 in effect  )


on April 1, 1984, subject to limitations of the Contract.

        In 1987, Nationwide and HHS executed another Medicare Part B agreement, Contract
No. HeF A-87-311-2 ("1987 ContractU). That was the last Medicare Contract the parties
executed. Moreover, Nationwide entered into no other federal government contracts or
subcontracts after executing the 1987 Contract. Article XXVI of the 1987 Contract states that
the tenn began on October 1, 1987 and ended on September 30, 1988, and would be
autoDlatically renewed for one-year periods unless one of the parties provided written notice of
an intent not to renc\v the Contract. As discussed further below, the 1987 Contract incorporated
CAS 413.

       The parties tenninated the 1987 Contract on June 30, 2002. Nationwide rnade its
Subnlission on May 10, 2004. The OIG provided the Draft Reports on January 8, 2008. The
oro agreed that Nationwide's response to the Draft Reports could be submitted by April 4,
2008.

                                        Areas OfDispute

        The remainder of this letter addresses the errors that Nationwide has identi tied in the
Draft Reports. Nationwide reserves the right to raise additional issues that may arise as a result
of its ongoing analysis of the Draft Reports.

I.	     Pension Costs Incurred Under Pre-CAS Contracts Do Not Increase The Aggregate
        Medicare Percentage




        As far as \\-'e have been able to ascertain, Appendix B was not included in Nationwide's
contract. If Appendix B was not included in Nationwide's contract, the OIG's position
expressed in the audit report with respect to including the pension costs attributable to this
contract in the numerator of the government share fraction \-vould be incorrect.


One Nationwide Plaza                       Counsel to all Nationwide companies and their
Columbus,OH 43215-2220                     subsidiaries and affiliates.
                                                                                           APPENDIXB
                                                                                             Page 3 of20




        The parties agree that the closing of Nationwide's Medicare segment resulted in a
segnlent closing under CAS 413. The OIG, however, contends that the closing of the segment
also resulted in an uabnonnal forfeiture" under a provision that pre-dated the FAR and was
allegedly included in contracts in effect from 1966-1981. Based on that contention, the OIG
asserts that the numerator of the Medicare share percentage should include pension costs
incurred during 1966-1981. See Segmentation Report at 10. Adding the 1966-1981 costs to the
numerator substantially increases eMS's share of the segment-closing adjustment.

       In particular~ the DIG claims that the following clause from the Federal Procurement
                                      3
Regulation C'FPR") supports its view:

                In detennining the cost of deferred compensation allowable under
                the contract, appropriate adjustments shall be made for credits or
                gains, including those arising out of both nonnal and abnonnal
                employee turnover, or any other contingencies that can result in
                forfeiture by employees of such deferred compensation.
                Adj ustments shall be made for forfeitures which directly or
                indirectly inure to the benefit of the contractor. . . . Adjustments
                for possible future abnolmal forfeitures shaH be effected according
                to the following nlles: ...

                (ii) Abnonnal forfeitures ... nlay be made the subject of
                agreement between the Government and the contractor either as an
                equitable adjustment or a method of detemlining such adjustnlent.

FPH. 1-15.205-6(f)(3) (quoted ill Segmentation Report at 7). The OIG offers no explanation as to
why a provision from contracts long since closed out has any relevance to the segment closing
that occurred in 2002 and that is governed by CAS 413 .50(c)( 12). As discussed below, there are
numerous flaws in that assertion.

         At the outset, the plain intent of the FPR abnoffilal forfeiture" provision is to address
                                                   H


situations "that can result in forfeiture by employees of ... deferred compensation." Even
assurning that the cited FPR language applies to Nationwide, the OIG has neither identified the
employees it believes forfeited deferred compensation nor the amounts of those forfeitures.
Instead, the DIG merely assunles, without articulating the premise, that the FPR "abnormal
forfeiture" requirements are necessarily triggered by a CAS 413 segment closing, and that the
arnount of eMS entitlement from an "abnonnal forfeiture" is detennined using calculation
principles identical to those contained in CAS 413.50(c)(l2). Yet, despite the tight linkage urged
by the GIG between the FPR and CAS 4] 3, the FPR "abnormal forfeiture" provision does not
refer to CAS 413.50(c)( 12), nor does CAS 413.50(c)(12) refer to the FPR "'abnormal forfeiture"




        The promulgation of the FAR in 1984 superseded the FPR in its entirety.


One Nationwide Plaza                       Counsel to all Nationwide companies and their
Columbus, OH 43215-2220                    subsidiaries and affiliates.
                                                                                            APPENDIXB
                                                                                              Page 4 of20




provision. Thus, there is no basis in the plain regulatory language for injecting the "abnormal
forfeiture" provision into the calculation required by CAS 413.50(c)(12).

        In addition, the DIG's reliance on the "abnonnal forfeiture" provision overlooks the nlles
applicable to perfonning a segment-closing adjustment under CAS 413.50(c)(12). In Teledyn~
Inc. v. United States, 50 Fed. Cl. 155 (2001)t the Court of Federal ClaiIUS set forth those basic
nl1es. The court explained that CAS 413.50(c)(12) prohibits the parties from including in the
numerator of the government share fraction any pension costs incurred under pre-CAS contracts:
"Thus, neither the government nor the contractor can recover any surplus or deficit attributable
to contracts that did not contain the original CAS 413. This includes contracts executed between
the parties prior to the first applicable cost accounting period after March 10, 1978, the effective
date for CAS 413." Teledyne, 50 Fed. Cl. at 183-84. The Defense Contract Management
Agency ("DeMA") and Defense Contract Audit Agency ("DCAA') have acknowledged this
clear aspect of the Teledyne decision by noting that the decision bars the inclusion of pre-CAS
pension costs as part of the government's share. See DCANDCMA Joint Guidance
Implementing the Teledyne Decision on CAS 413.50(c)(12) Segment Closing Adjustments at 1
("the portion of a closed segment's pension surplus or deficit that is attributable to pension costs
that were allocated to contracts that predate CAS 413 ... must be excluded from the calculation
of the Government's share of the CAS 413 segment closing adjustment.").

       DCMA and DCAA had almost three years to analyze the consequences of the Teledyne
decision, yet there is no ment"ion in their Joint Guidance that the FPR Habnormal forfeiture"
provision could be used to increase the govemmenCs share of an adjustment under CAS
413.50(c)(12). lJ1deed, we are not aware of any government agency that has ever offered this
argument in the roughly thirty years since the CAS Board pronlulgated CAS 413.50(c)(12) in
1977.

      In short, the OIG's novel attempt to apply the "abnormal forfeiture" clause to the CAS
segment-closing process is directly contrary to the proper application of CAS 413 .50(c )(12).4

       Nor can Nationwide's pre-CAS contracts provide a mechanism for recovery under the
FPR "abnonllal forfeiture" provision. During the time that Nationwide's pre-CAS contracts
were in force, no abnonnal forfeiture occurred, and those contracts have long since been
superseded by the 1987 Contract, in which CAS 413.50(c)(12) controls. Moreover, it was not




       Although the revised version of CAS 413 promulgated by the ne\v CAS Board in 1995
does not apply to Nationwide)s segment closjng for the reasons discussed belo\v, the OIG's
Segmentation Report nonetheless relies on New CAS 413. It is therefore noteworthy that New
CAS 413.50(c)(12)(vi) also excludes pre-CAS pension costs fro.m the numerator of the
government share fraction, and it does not mention the FPR Habnormal forfeiture" provision.


One Nationwide Plaza                       Counsel to all Nationwide companies and their
Columbus.OH 43215-2220                     subsidiaries and affiliates.
                                                                                             APPENDIXB
                                                                                               Page 5 of20




until August 1989 that the FAR was aIuended to pennit the government to recover for the
tennination of overfunded pension plans. See Teledyne, 50 Fed. Cl. at 166-67. 5

        In addition, the GIG's reliance on the FPR "abnonnaJ forfeiture" provision overlooks the
fundanlentaJ distinction between cost allocability and cost allowability. Allocability is an
accounting concept concerning the relationship between incurred costs and the cost objectives
(such as contracts) and activities to which those costs are charged. Cost allowability involves
whether a particular cost can be recovered from the government, in whole or in part. See Boeing
N. Aller., Inc. v. Roche, 298 F.3d 1274, 1280-8] (Fed. Cir. 2002). The "abnormal forfeiture"
provision expressly states that it is an allowability regulation; it begins "In detennining the cost
of deferred compensation allowable under the contract . ..." FPR 1-15.205-6(f)(3) (emphasis
added).

        The OIG's position anl0unts to an impermissible attempt to have a cost allowability
provision -- the "abnonnal forfeiture" provision - control a question of allocability governed by
CAS 413.50(c)(12). The court in Teledyne explained that CAS provisions must prevail in any
conflict with inconsistent allowability provisions. See Teledyne, 50 Fed. Cl. at 162 (HThis
distinction between allocability under the CAS and allowability under the FAR is well
recognized. The Federal Circuit has held that with respect to allocation of costs, the CAS
supersedes any agency-specific regulation to the extent the regulation is inconsistent with the
CAS. Rice v. Martin Marietta Corp., 13 F.3d 1563, 1565 n.2 (Fed.Cir. 1993)."). Thus, even
assuming for purposes of argument that the "abnonnal forfeiture" provision somehow applies to
Nationwide's 2002 segtnent closing, CAS 413 would control over that provision.

II.      NatioD'''ide's Contract Is Not Subject To New CAS

         The Segn1entation Report contends that the 1995 revisions to CAS 413 by a ne,w CAS
Board govern a segment closing under Nationwide's 1987 Contract. The ala offers no
justification for this provision and, as discussed below, there can be no such justification.

         Congress established the original CAS Board in ] 970 \vithin the Legislative Branch.
Pub. L. 91-379, § 719 (1970). Seven years later, the original CAS Board promulgated CAS 413.
42 Fed. Reg. 37,191 (July 20,1977). Section 413.80 of that Standard specified an effective date
of March 10, 1978, and further stated: "This Standard shall be followed by each contractor on or
after the start of his next cost accounting period beginning after the receipt of a contract to which
this Cost Accounting Standard is applicable." Thus, original CAS 413 applied only after
Hreceipt" of a CAS-covered contract; modifications to pre-existing contracts were insufficient to
trigger the ne\\' Standard.


         The GIG's reliance on the pre-CAS contracts is particularly problematic in light of its
prior representation to Nationwide that Nationwide would not need to produce any
documentation for the time period before original CAS 413 was promulgated. See Letter fronl
Thomas J. Prunte to Al Savery (May 6, 1999), at 1. Nationwide relied on that representation.


One Natiomvide Plaza                        Counsel to all Nationwide companies and their
Columbus, OH 43215·2220                     subsidiaries and affiliates.
                                                                                            APPENDIXB
                                                                                             Page 60f20




       In 1980, the original CAS Board ceased to exist, and the Defense Department undertook
the administration of Standards promulgated by the original Board. 73 Fed. Reg. 8259, 8260
(Feb. 13,2008).

        As discussed above, Nation\vide and the govenunent executed Medicare contracts in
1966, 1973. 1976, 1978, 1981, 1986, and 1987. Appendix B to the 1987 Contract states that Hin
computing and allocating pension costs to [the Contract], the [FAR] and [CAS] 412 and 413
shall apply, and CAS 413 shall be interpreted and applied in accordance with Item XVI of this
Appendix B." Hetn XVI of Appendix B states in part:

                 The Secretary and the contractor agree that, for purposes of this
                 agreen1entJcontract, CAS 413 shall be interpreted and applied as
                 specified herein. Neither the Secretary nor the contractor shall
                 seek to apply a different interpretation of the provisions of the
                 CAS addressed below, consistent with applicable statutes and
                 regulations, with respect to tlus or any prior contract period.

Appendix B at 9. The 1987 Contract tenninated on June 30, 2002. Nationwide never received a
CAS-covered contract or subcontract after March 30, 1995, the effective date of New CAS 413.

        In 1988, Congress created a new CAS Board, this time placing it in the Executive
Branch. Pub. L. 100-679 (1988). The new Board undertook the task of addressing certain issues
concerning CAS 4] 3 promulgated by the original Board. On March 30. 1995, the new Board
promulgated a version of CAS 413 that substantially revised Original CAS 413. &~ 60 Fed.
Reg. 16,534 (Mar. 30, 1995). Section 413.63 of the revised Standard states that the effective
date was March 30, 1995, and that the Standard "shall be fonowed by each contractor on or after
the start of its next cost accounting period begimung after the receipt of a contract or subcontract
to which this revised Standard applies." TIlUS, as with Original CAS 413, contractors are not
required to follow the revised Standard until they receive a contract or subcontract to which the
Standard is applicable, and modifications to pre-existing c,ontracts are insufficient to trigger the
revised Standard.

        As discussed below, the SegJllentation Report contains several allegations that are
pren1ised on application of Ne\v CAS 413. Yet that Report docs not attempt to explain why New
CAS 413 applies to the 1987 Contract. 6 Instead, the OIG siInply assumes, incorrectly, that New
CAS 413 applies. For exanlple, the Segmentation Report states - with no explanation - that
Nationwide Hdid not revalue transfers using the accrued benefit cost method for plan years after



        Indeed, the Audit 'Report states that "eMS incorporated CAS 412 and 413 into the
Medicare contracts effective October 1,1980," and that, "[s]tarting injiscalyear 1988, eMS
incorporated segmentation requirements into N1edicare contracts" - events that occurred long
before promulgation of New CAS 413 in 1995. Segnlentation Report at 2 (emphasis added).


One Nationwide Plaza                        Counsel to all Nationwide companies and their
Columbus. OH 4321 s..2220                   subsidiaries and affiliates.
                                                                                            APPENDIXB
                                                                                             Page 70f20




March 31, 1995, as required by the revised CAS." Segmentation Report at 6 (emphasis added);
see also iQ. ("Nationwide did not use the WAV of assets to allocate earnings for plan years after
March 31,1995, as required by [New] CAS 413.50(c)(7).").

         The Segmentation Report's failure to provide any justification for applying New CAS
413 is not surprising, given that the facts and law finnly establish that there is no such
justification. The 1987 Contract states that CAS 413 applied to the computation and allocation
of pension costs to the Contract, which necessarily referred to original CAS 413. Also, the
parties agreed to interpret and apply that version of CAS 413 in accordance with Item XVI of
Appendix B, and further agreed that neither party would "seek to apply a different interpretation
of the provisions of the CAS addressed below, consistent \vith applicable statutes and
regulations, \-vith respect to this or any prior contract period." Appendix B at 9. Moreover, the
 1987 Contract states that it "nlay be Illodified at any time by nlutual consent 0 f the parties
 thereto." 1987 Contract at 25. Nationwide and HHS amended the 1987 Contract several tin1es,
but never amended it to incorporate the revised CAS 413. See,~, Amendment No. 16 (Sept. 7,
2000) (revising period of perfornlance for Contract No. HCFA-87-31 1-2 to Sept. 7, 2000 through
Sept. 30, 200 1).

        In addition to the fact that the 1987 Contract demonstrates the parties' understanding that
New CAS 413 is inapplicable, New CAS 413 itself establishes that it cannot apply. The new
CAS Board expressly limited application of the revised Standard to contractors who receive a
contract or subcontract to which that Standard applies after March 30, 1995. If the new CAS
Board had meant for the revised Standard to apply to pre-existillg cOlltracts that are extended
after March 30, 1995, it would have said so. Significantly, the 1987 Contract ~'as Nationwide's
only federal government contract betvv"een the time the parties executed it in 1987 and the tiDle it
was temlinated in 2002. Because Nationwide never received a new contract or subcontract
subject to New CAS 413 after March 30, 1995, that revised StandarcL by its tenns, cannot apply.

        The Segrnentation Report's application of New CAS 413 results in differences from
Nationwide's segment-closing adjustment that benefit CMS by over $2 million. This is the type
of significant prejudice that the new CAS Board sought to prevent by limiting application to
those situations where contractors voluntarily agree to accept a contract subject to the revised
Standard after its effective date. This prejudice flows in part from the rnaterial differences
between the angina) CAS 413 - which Nationwide agreed to follow in accordance with
additional provisions unique to 1vledicare contracts - and the revised CAS 413 - which
Nation,vide never agreed to follow.

III.    Funding of 2002 Pension Costs

        Nationwide calculated the 2002 CAS pension cost for the Medicare segment to be
$722, 157. ~~ Submission at S 1. In contrast, the GIG's position is that the 2002 CAS cost for
the Medicare segrnent was zero. See Cost Report at 3 n.2. While Nationwide disputes that
position, the issue addressed here is different: even if the OIG had determined that a CAS cost
greater than zero was assigned to the period beginning January 1, 2002, it apparent] y would have
deemed that cost to be unallowable. We base this conclusion on cell B 112 of the "Notes"
One Nationwide Plaza                       Counsel to all Nationwide companies and their

Columbus,OH 43215·2220                     subsidiaries and affiliates.

                                                                                            APPENDIXB
                                                                                              Page 8 of20




spreadsheet within the Excel \vorkbook provided by the OIG, which includes the following
notation:

                Nationwide nlade approximately 117,000,000 in contributions for
                the 2002 plan year. We have not included these in our CASCOST
                calculations since the entire anlount was contributed after the
                6/30/2002 segment closing date. This results in an unallowable
                [sic] unfunded as of 6/30/2002 that appears on the "2003" sheet in
                Exhibit B.2.

        The GIG has provided no support for its contention that a segment closing affects the
funding deadline for pension costs for the period in which the closing occurs. Contrary to this
position, any pension costs assigned to 2002 did not have to be funded by the sCgJnent closing
date, but rather could have been funded at any time prior to the tax filing deadline for the 2002
plan year. See Original CAS 412.50(c)(4); see also New CAS 412.50(d)(4).

       Moreover, although the OIG indicates that there were zero contributions for 2002 (see
Appendix to Cost Report at 9), under the OIG's treatment of prepayment credits (discussed
below in more detail), any 2002 pension cost for the Medicare segnlent would presunlably have
been funded by the application of prepayment credits that existed as of January 1, 2002.

IV.     Participant Transfers and Benefit Payments

       The OIG claims that "Nationwide understated benefit payments by $546,231" and that
HNationwide overstated transfers out of the Medicare segment by $3,287,665." SegJnentation
Report at 6. As discussed below, these claims are wrong.

        When Medicare participants retired, Nationwide transferred to the Other (i.e., non­
Medicare) segment the sum of (1) assets equal to the actuarial liabilities for the ne\v ly retired
participants at the end of the year in which they retired, plus (2) the amount of benefit payments
paid to the retirees during the year of retirement; in this manner, Nationwide charged all benefit
payments to the Other segment. GIG claims that Nationwide's approach is "incorrect[]" and
substitutes a different methodology even though, for the periods prior to 1996. both approaches
reach the same result. 7

       Moreover, the total Plan benefit payment amounts used by GIG in its analysis for 1996­
2001 differ ffOOl those in Nationwide's Submission. s Nationwide based its calculations on the


      For 1996 and later. the O(G reached results different from Nationwide's because the QIG
assumes, with no justification, that Ne\v CAS 413 applies. This issue is discussed above.
8      For exan1ple, the Submission reported total Plan benefit payments for 1996 of
$68,158,379 (see Subn1ission at S29, cell JI14), but the Segmentation Report lists those benefit
payments as $68,143,108 (see Appendix A of the Segmentation Report at 3).


One Nationwide Plaza                       Counsel to all Nationwide companies and their
Columbus, OH 43215-2220                    subsidiaries and affiliates.
                                                                                          APPENDIXB
                                                                                            Page 9 of20




audited Fornl 5500 infoffilation (see Submjssion at Tab A96), whereas we understand that the
                                                            9
OIG used infonnation from Nationwide's actuarial reports. The OIG's use of actuarial reports
as opposed to audited Fornl 5500s is puzzling, particularly given that the ala relied on Form
5500 infonnation for contribution amounts and dates of deposit. See Appendix to the Cost
Report at 9 n.l.

v.     1995 Cost Claimed

       The OIG contends that the fiscal 1995 cost claimed by Nation\vide was $1,644,471. Cost
Report at 3. In fact, however, the amount of cost Nationwide claimed for fiscal 1995 was
$1,644,417. See Submission at S 13, cell E 122. The GIG apparently transposed the digits in
question and carried the results of this error throughout its analysis.




VI.     Federal Fiscal Year 1987..1988 Costs

         Section XVLC of Appendix B to the 1987 Contract required Nationwide to calculate
pension costs in accordance with Section XVI.B "[b]eginning with the pension plan year starting
in fiscal 1988." Thus, the 1987 Contract govetl1ed the calculation of Nationwide's pension costs
for peliods on and after March 1, 1988. Moreover, Section XVI.A provides:

               rf the contractor complies with or makes a good faith effort to
               comply with the provisions of this Itenl XVI, neither the Secretary
               nor the contractor shall seek to adjust the pension costs allocated to
               prior Medicare contracts/agreements, which were entered into by
               the Secretary and the contractor, on the ground that the pension
               costs for a segment 'were not separately calculated, as required by
               C.A.S 413.40(c).

        Notwithstanding this provision, the QIG seeks - with no explanation - to disallow all of
Nationwide~s pension    costs from October 1, 1986 through February 29, 1988 (that is, the portion
of its Federal fiscal year ("FFY") 1987"] 988 costs prior to March 1, 1988). To illustrate, page 3
of the Cost Report compares (1) the costs Nationwide submitted on its FACPs for FFYs 1987
through 2002 to (2) the costs OIG determined for the same period, and asserts that the difference




        The various benefi t payments reported for 1996 in Section III of the January 1, 1997
actuarial report do not add to the $68,143,108 reported in the Segmentation Report, although
they are close. The difference appears to be related to the accrued benefit payments at the
beginning of 1996 that the OIG mistakenly added instead of subtracted.


One Nationwide Plaza                       Counsel to all NaUonwide companies and their
Columbus,OH 43215·2220                     subsidiaries and affiliates.
                                                                                            APPENDIXB
                                                                                             Page 10 of20




of $1,456,481 lueans that "Nation\vide clainled $1,456,481 of unallo\vable Medicare pension
costs for FYs 1987-2002. H

        The 010 claims that the allegedly unallowable amount of$1,456,481 includes $468,953
of costs for FFY 1987 and $291,020 of costs for FFY 1988, which total $759,973. The portion
of these costs associated with the period October 1, 1986 through February 29, 1988 is shown in
the following table: 10

                                               TABLE 1
                                                            FACP Costs
                                      Month                  for Month


                                October 1986                              o
                                November 1986                     138,702
                                December 1986                    (485,457)
                                January 1987                     344,558
                                February 1987                    104,700
                                March 1987                         52,350
                                April 1987                         52,350
                                May 1987                           52,350
                                June 1987                          52,350
                                July 1987                          52,350
                                August 1987                        52,350
                                September 1987                     52,350
                                October 1987                       52,350
                                November 1987                      52,350
                                December 1987                     (41,115)
                                January 1988                       44,575
                                February 1988                      44,575
                                                                 621,688

Because the GIG did not explain \vhy it disallowed these pension costs, Nationwide is unable to
provide a comprehensive response at this time. Infonnal discussions between Nationwide's
consulting actuaries and the eMS Office of the Actuary suggest that OIG's view is based on an
interpretation of Section XVI.A of Appendix B in which costs for the period from October 1,
1986 through February 29,1988 must be detemlined in accordance with CAS 412 and 413. [n
addition, because Nationwide nlaintained segment accoWlting within its historical actuarial
reports, the eMS Office of the Actuary apparently believes that segmented methodology must be
applied 10 detennine CAS costs for October 1, 1986 to February 29, 1988. Although it is
Nationwide's view that the proper reading of Section XVI.A is that the OIG should not question


10
         These anlounts are reported on pages S9 to S 10 of the Submission.


One Nationwide Plaza                         Counsel to all NaUonwide companies and their
Columbus.OH 43215-2220                       subsidiaries and affiliates.
                                                                                             APPENDIXB
                                                                                              Page 11 of20




pension costs for this period on account of Nationwide's Hgood faith effort to conlply," even if
theOIG's interpretation of that Section is correct, its conclusions are nevertheless wrong, as
sho\vn below:

        •	      The March 1, 1986 actuarial report indicates that the Plan was not fully funded as
                             11
                of that date. Section X of the report lists contribution ranges for the
                participating companjes, and reports the following amounts for the Medicare
                segment (known as Company 31):

                          Maximum                            $767,280
                          Minimum                             440,508
                          15-Year Contribution                717,187

                On this basis, there is no reason to conclude that the pension cost assigned to the
                plan year beginning March 1, 1986 for the Medicare segment would be zero.

        •	      The 1986 Fornl 5500 and Schedule B each report contributions 0[$19,801,488,
                and Section L'C of the March 1, 1987 actuarial report lists contributions for
                March 1, 1986 to February 28, 1987 for "Company Number 31" to be $645,201.
                The preceding bullet established the presence of a non~zero assignable CAS
                pension cost for the rvtedicare segment for the year beginning March 1, 1986, and
                this bullet establishes that Nationwide's funding was well in excess of the
                assignable pension cost for the Medicare segment. 12 Accordingly, there is no
                reason to conclude that the amount of the pension cost assigned to the March 1,
                1986 to February 28, 1987 period would not be allowable.

                Nationwide adopted Statement of Financial Accounting Standards No. 87 C'FAS
                87") in 1987. See March 1~ 1987 Actuarial Report, Section XIII. Accordingly,
                pursuant to Original CAS 412.50(b)(2)(i), the CAS pension cost for 1987 should
                be detemlined under an iOIDlediate gain method rather than the frozen initial
                liability approach that was used before 1987; however, due to the brief time
                period in which to prepare a response, it was not possible to make the requisite
                calculations. Accordingly, the points in the bullets belo\v are based on
                infonnation that is readily available.



II
        The March 1, 1986 actuarial report states: HThe Full Funding Liluitation was detemlined
to be in excess of $66,490,264, well above the maxitnunl contribution and, therefore, not
applicable." Section I, at 3.
12     Because Nationwide did not allocate any indirect pension costs to the Moedicare progran1,
funding for CAS purposes can be made first to the MOedicare segment and then to other segtnents.
We understand that this treatment is consistent with the position OIG has taken with other
Medicare contractors.


One NatJonwide Plaza                        Counsel to all Nationwide companies and their
Columbus, OH 43215-2220                     subsidiaries and affiliates.
                                                                                             APPENDIX B
                                                                                              Page 12 of20




        •	      The March 1, 1987 valuation report indicates that the Plan was not fully funded as
                of that date. 13 Section Xl of the report lists contribution ranges for the
                participating companies, and reports the following amollilts for the Medicare
                segment (Company 31):

                          Maxinlum                                 $791,652
                          Minimum                                   537,110
                          FAS 87 net periodic pension cost          534,735

                On this basis, there is no reason to conclude that the pension cost assigned to the
                plan year beginning March 1, 1987 would be zero.

                The 1987 Form 5500 and Schedule B each report contributions for the year of
                $31,419,137, and Section IX of the March 1,1988 actuarial report lists
                contributions for March 1, 1987 to Febnlary 29, 1988 for "ColnpanyNumber 31"
                to be $798,011. The preceding bullet established a non-zero CAS pension cost
                for the Medicare segment for the year beginning March 1, 1987, and this bullet
                establishes that Nationwide's funding would have been well in excess of the
                assignable pension cost for the Medicare segment. 14 Accordingly, there is no
                reason to conclude that the anl0unt of the pension cost assigned to the period
                March 1, 1987 to February 29, 1988 would not be allowable.

        •	      Nationwide's contenlporaneous actuarial reports show the amount. of assets for
                the Medicare segment as of March 1, 1986 to be $8,389,985. See Section VIlI of
                the March 1, 1986 actuarial report. Nationwide used those reports to detennine
                the pension costs for the Medicare segIllent as described in those reports (and as
                discussed in the preceding bullets). However, the OIG contends that the proper
                asset value for the Medicare segrnent on March 1, 1986 is $8,110,959. See
                Segmentation Report, Appendix A, at 1. Thus, if CAS pension costs were to be
                recomputed as of March 1, 1986 and March 1, 1987, which appears to be the
                OIG's position, those costs \vould be based on a smaller asset base and therefore
                \vould be higher than the amounts shown in Nationwide's historical actuarial
                reports.




13
        The ~1arch 1, 1987 actuarial report states: "The Full Funding Limitation (IRe Section
404) "vas detennined to be $35,045,142 which is greater than the maximum contribution and,
therefore, not applicable." Section I, at 3.
14     As stated earlier, Nationwide did not allocate any indirect pension costs to the Medicare
program so that funding for CAS purposes would be deemed to be made first to the Medicare
segment.


One Nationwide Plaza                        Counsel to all Nationwide companies and their
Columbus. OH 43215-2220                     subsidiaries and affiliates.
                                                                                           APPENDIXB
                                                                                            Page 13 of20




         Although the OIG disallowed all of Nationwide's costs for FFYs 1987 and 1988 (see
Cost. Report at 3), it nonetheless agreed with the amount of contributions Nationwide reported
for those same years (see Segmentation Report, Appendix C). lethe OIG believed that the costs
for the Medicare segment were zero for PFYs 1987 and 1988, those contributions should be
treated as prepayments and should not be considered assets of the Medicare segment for CAS
purposes. But the OIG has included these amounts as Medicare segment assets and claims that it
is entitled to recover these anlounts (as adjusted for investlnent return to the segment closing
date) in connection with the segment closing. This treatment is patently unfair - there is no basis
for the Govemrnent to attempt to recover costs from a contractor that it has deemed to be
unallowable and has therefore refused to reimburse.

        In SUnlJnary, (1) there is no basis for the GIG's disallowance of Nationwide's pension
costs for the October 1, 1986 to February 29, 1988 period; (2) any appropriate adjust1uents to be
nlade to Nationwide's FACPs for that period would be upwards and not downwards; and (3)
there is no basis for OIG's attempt to recover costs that it claims are unallowable.

VII.    Application of Prepayment Credits

         Because actuaJ.;al valuations are typically illade as of the first day of a plan year but
contributions are generally made at one or more later dates, pensjon costs are typically adj usted
with interest at the valuation rate from the valuation date to the date(s) of payment. In this
n1anner, the pension fund is compensated for the investnlent income that \vould presumably have
been earned if the funding had occurred on the valuation date. The original CAS Board
specifically sanctioned this approach: "Several conlffientators stated that they conlpute pension
cost at the beginning of a cost accounting period and add interest at the valuation rate to the
nonnal cost to the date of funding. . .. The Standard being promulgated does not prohibit this
practice ...." 40 Fed. Reg. 43,873,43,876 (Sept. 24, 1975) (Prefatory Comment 10 to Original
CAS 412).

        In practice, contractors typically compute CAS pension costs based on assUTI1cd funding
dates. For at least the last 20 or so years) the Government was aware of and incorporated this
practice into its standard pension review policies:

               The amount of interest added in the actuarial valuation to the
               arnount of pension cost due as of the valuation date should be
               reviewed. TIle amount of add on interest included in charges to
               Government contracts should not exceed (8.5 divided by 12) X
               (the actuarial interest rate) X (the contribution due as of the
               beginning of the valuation period).

Defense Contract Administration Services Manual for Conducting Contractor InsurancelPension
Reviews at 32 (June 1987) (enlphasis added). The factor of"8.5 divided by 12" is equivalent to
the funding schedule. set forth at FAR § 31.205-6G)(2)(iii) (2008), which contemplates that
pension costs will be funded 30 days after the end of each quarter.


One Nationwide Plaza                       Counsel to all Nationwide companies and their
Columbus,OH 43215·2220                     subsidiartes and affiliates.
                                                                                               APPENDIXB
                                                                                                Page 14 of20




        In practice, the interest calculations are documented in the actuarial valuation report. In
other words, the interest adjustment is made in advance on the basis of assu",ed contribution
dates rather than retrospectively based upon actualfunding dates.

        However, the      ora asserts that:
                Nationwide overstated contributions and prepayment credits by
                $1,713,391 because of ... Nationwide's use of an imputed interest
                cost in its current-year contributions ... rather than on the interest
                incurred based on the actual timing of funding deposits, as required
                by the FAR.

                In compliance with CAS 412.50(a)(4) and FAR 31.201-1(a), we
                applied prepayn1cnt credits first to current-year assignable pension
                costs and then updated any remaining credits with interest to the
                next nleasurernent (valuation) date because the credits are available
                at the beginning of the year ....

Segmentation Report at 5-6. Thus, the GIG contends that, when prepayment credits are present,
CAS pension costs must be calculated based on presumed funding on the first day of the plan
year. To illustrate, suppose the pension cost for a year is measured to be $10,000 as of the first
day of the year, that pension costs are presumed to be funded in accordance with the FAR
schedule, and that the valuation interest rate is 60/0. In the absence of prepayment credits, the
parties would agree that the CAS pension cost for the year, adjusted for interest, would be
detemlined as follows: 15


        CAS Pension Cost           = $10,000 x ( 1 +   ~; x 6%)
                                   = $10,425
Nationwide tnade the CAS cost calculations in its Submission in a manner consistent with the
$10,425 for all years. In contrast, the OIG contends that the CAS cost would be limited to
$10,000 if prepayment credits of at least $10,000 were present at the begiruling of the Plan year.
For the reasons set forth below, the OIG's position is incorrect.




15
        rlbis approach is consistent with both Nationwide's approach in its Submission a~ well as
calculations made by the eMS actuaries when prepayments are not present. See, ~&, Appendix
to Cost Report at 2 (in the "Allowable Interest" calculation for 1989 of $34, 170, the amount is
calculated as $603,006 x (~: x 8.00%)).



One Nationwide Plaza                           Counsel to all Nationwide companies and their
Columbus, OH 43215-2220                        subsidiaries and affiliates.
                                                                                                APPENDIXB
                                                                                                 Page 15 of20




       •	      The prepayments belong to Nationwide. It is well accepted aluong actuarial
               professionals that prepayment credits belong to contractors. It SilUply does not
               olake sense that the Governnlent can reap a benefit (~, a savings of $425 in the
               preceding illustration) frool an asset in \vrueh it has no ownership interest.

       •	      Nationwide's approach is CAS compliant. Despite the assertion in the langua¥e
               quoted above from page 6 of the Segmentation Report, New CAS 412.50(a){4) b
               does not support GIG's contention that prepayn1cnt credits must be applied on the
               first day of a plan year. In fact, that provision states that Hprcpayment credits
               shall be adjusted for interest at the valuation rate of interest until applied towards
               pension cost in a future accounting period," which is precisely what Nationwide
               did. Indeed, as demonstrated in the following bullet, OIG's position is
               inconsistent with New CAS 412, which clarifies that the decision to apply
               prepayment credits is made by Nationwide, not the OlG.

       •	      DIG's approach violates New CAS 412. The OIG's position is in direct conflict
               \vith New CAS 412.60(c)(5). As background, the example at New CAS
               412.60(c)(5) contemplates a situation where the CAS 4] 2 assignable pension cost
               is $1.5 million, the contribution amount is $1.0 million, and prepayment credits at
               the beginning of the period are $700,000. Under the theory articulated in the
               Segmentation Report, the hypothetical contractor described at New CAS
               412.60(c)(5) \vould have been required to apply the full $700,000 of prepayments
               at the beginning of the year towards the $1.5 million cost for the year. However,
               New CAS 412.60(c)(5) provides that the contractor "can apply $500,000 of the
               accumulated value of prepayment credits to'wards the pension cost cOlnputed for
               the period." Thus, the contractor can choose to apply its prepayment credits
               before or after it applies its contributions, at its discretion. This illustration fatally
               undemlines the OIG's assertion that prepayment credits are autonlatically applied
               on the first day ofa plan year. New CAS 412.60(c)(13) and NeVv' CAS
               412.60(d)(4) further reinforce that the contractor retains the discretion as to when
               prepayment credits are applied and the amount so applied.

       •	      FAR does not support DIG's position. The OIG also asserts (see,~,
               Segmentation Report at 5) that FAR 3] .201-1(a) supports its position. FAR
               31.201-1(a) states:

                         The total cost, including standard costs properly adjusted
                         for applicable variances, of a contract is the sum of the
                         direct and indirect costs allocable to the contract, incurred


16
       As discussed above, New CAS 412 and 413 never applied to Nationwide's 1987
Contract. Nonetheless, sitnply for purposes of argument, our response is here based on the
provisions of New CAS 412 cited by the GIG.


One Nationwide Plaza                         Counsel to all Nationwide companies and their
Columbus,OH 43215-2220                       subsidiaries and affiliates.
                                                                                            APPENDIXB
                                                                                             Page 16 of20




                         or to be incurred, plus any allocable cost of money pursuant
                         to 31.205-10, less any allocable credits. In ascertaining
                         \vhat constitutes a cost~ any generally accepted method of
                         detennining or estimating costs that is equitable and is
                         consistently applied may be used.

        The OIG does not explain how this very general provision concerning the total cost of a
        contract supports its position concerning the very specific issue of prepayment credits or
        any of the other specific issues in the Segmentation Report. In any event, this broad FA.R
        provision offers no support for the GIG's position that prepayment credits must be
        applied on the first day of a plan year versus Nationwide's position that the contractor
        retains full discretion as to the application of prepayment credits.

VIII. Asset Valuation Method

       Nationwide's Submission states that "[t]he 1989 change in the ERISA asset valuation
method from account value to market value was not adopted for CAS purposes." Subrnission at
II-I. Nevertheless, OIG's calculation of costs presunled that the asset valuation nlethod for
purposes of CAS 412 and 413 was revised to remain consistent with ERISA.

       Contractors, and not the government, are entitled to select their cost accounting practices.
Accordingly, the DIG's analysis should be revised to reflect the asset valuation methodology
chosen by Nationwide for CAS purposes as reported in the Subn1ission. If the GIG means to
suggest that Nationwide's Submission was not compliant, that suggestion is wrong.

IX.      Allocation of Return

        Under Original CAS, investment return is allocated to segments based on CAS
413 .50(c)(7), which states: "Fund income and expenses shall be allocated to the segnlent in the
same proportion that the assets anocated to the segment bears to the total fund assets as of the
beginning of the period for which fund income and expenses are being allocated."

        Nationwide prepared the Submission on this basis. The OIG, without providing any
rationale~ used a methodology that does not comply with Original CAS 413.50(c)(7) and that
provides eMS with an Ul1\varranted windfall. OIG's methodology relies on a misreading of the
phrase "assets as of the begitming of the period." A plain reading of the regulation means that
investment return should be allocated in proportion to assets at the start of each year without
regard to transactions that apply to the current plan year. Yet the OIG defines begimling-of­
period assets to include CAS costs for the upcoming year that it contends must be "autolnatically




One Nationwide Plaza                        Counsel to all Nationwide companies and their
Columbus,OH 43215-2220                      subsidiaries and affiliates.
                                                                                                             APPENDIXB
                                                                                                              Page 17 of20




funded~' through the application of prepayment credits. 17 The illustration in Table 2 below helps
to explain the flaws in the GIG's position:

                                                    TABLE 2
                                                    Other Segment

                                       Segment       Prepayment                          Medicare    Total
                                        Assets          Credit             Total         Segment     Plan

1.	 Beginning of year                      20,000            1,000          21,000          12,000   33,000
2.	 Prepayment transfer to cover
                                                                                             1,000
    Medicare segment CAS cost
3.	 OIG "beginning of year"                20,000
                                                            (1,000)
                                                                 0
                                                                            (1,000)
                                                                            20,000          13,000   33,000  °
4.	 Actual return for year                                                                            3,300

5.	 Allocation of actual return for year
   a.	 OIG approach (in
       proportion to line 3.)                                                2,000           1,300    3,300
   b.	 Nationwide position (in
       proportion to line 1.)                                                2,100           1,200    3,300
   c.	 Difference, a.• b.                                                     (100)            100        0



        The example in Table 2 presunles that the CAS cost for the Other segn1ent is zero, the
CAS cost for the Medicare segment is $1,000, and prepayment credits are $1,000. Line 3 of
Table 2 equals the assets as of the beginning of the year adjusted for the transfer of $1 ,000 of
prepayment credits [rOOl the Other segment to the Medicare segment to fund that segnlent's CAS
cost for the year of $1.000,18 lfthe total asset return for the plan is $3,300, the parties disagree


17
       This discussion adopts, for the purposes of argument, the OIG's lllcchanical approach to
applying prcpaynlent credits. As discussed above, that approach is wrong.
18      The OIG presumes that prepayment credits are maintained \vithin the Other segment. In
contrast, Nationwide's Submission assumed that prepayment credits are not associated with
either segnlent but rather represent an asset of the overall plan. See, Q.&., Submission at S27­
S31.
        As with other issues discussed in this response, OIG has not explained the basis for its
conclusion that the approach taken by Nationwide in the Submission is noncornpliant.
Nationwide's approach provides greater transparency when a prepayment credit is used to fund a
CAS cost of the Other segment. In addition, by retaining prepayment credits within a segInent,
the GIG's approach Ineans that any actuarial gains and losses arising from differences between
actual rates of investment return and the valuation rate of interest (which is credited on
prepayment credits) win be recognized solely within the Other segment. Under the OIG's
approach, two otherwise identical segments would have different costs. Accordingly, the GIG's
approach does not comply \vith the segment accounting requirements of CAS 413.


One Nationwide Plaza                                Counsel to all Nationwide companies and their

Columbus, OH 43215-2220                             subsidiaries and affiliates.

                                                                                            APPENDIXB
                                                                                             Page 18 of20




as to whether the $3,300 return should be allocated in proportion to line 1 (Nationwide's
position) or in proportion to line 3 (the OIG's position)?

        As shown in Table 2, the DIG method incre.ases the investment return alloe,ation to the
Medicare segment in this illustration by 8.3%) (that is, $100 divided by $1,200). Because
prepaynlent credits are transferred from the Other segn1ent to the Medicare segment only under
the GIG approach, and because any differences in the allocation of investnlent returns will
coolpound over many years, the OIG approach can result in significant reductions in pension
costs allocated to ongoing Medicare contracts and in larger asset values of Medicare sCgJuents at
contract temlination, thereby increasing the anlount of surplus available for recovery by eMS
under CAS 413.50(c)(12).

        This potential increased eMS recovery under the GIG approach is inconsistent with the
governing regulation. Original CAS 413.50(c)(7) refers to assets "as of the beginning of the
period~" but the OIG interprets this to mean "assets as of the begiIUling of the period, but
including any prepayments that have been identified and transferred to the segment once pension
costs have been calculated for the year." Although GIG apparently contends that the
prepayments arc theoretically transferred Has of the beginning of the period," the transfers of
prepayments (assuming that the automatic transfers themselves are valid) necessarily occur later.
To illustrate, the Medicare segtnent assets 0[$10,000 in line 1 of Table 2 must be used to
calculate the $1,000 in CAS pension cost for the year. Thus, the $1,000 cost cannot be known ­
even in theory - until after the $10,000 Medicare segment asset value is available.

       For the reasons explained above, the OIG's position on the meaning of Hbeginning of the
period" under CAS 413.50(c)(7) is wrong. Yet-even assuming for the sake ofargulnent that the
010 methodology does satisfy CAS 413, the OIG has not shown that the n1ethodology used by
Nation\\lide is noncompliant.

X.      OIG Audit Approach

        The GIG focused its findings on the CAS 412 and 413 pension cost calculations made by
the eMS Office of the Actuary rather than Nationwide's calculations in the Submission. For
example, the 01G states, on page 2 of the Cost Report, that "the eMS Office of the Actuary
calculated the allocable CAS pension costs ...." We understand that the CMS actuaries used a
portion of the data contained in the Submission to calculate Nationwide's CAS pension costs,
compared the results of their calculations with the amounts submitted on Nationwide's Final
Administrative Cost Proposals ("FACPs"), and deemed any resulting differences to be
                                     19
unallowable. See Cost Report at 3. That approach is improper; the fact that a variance exists


19
       The HPcr Audit" column on page 3 ofthc Cost Report apparently refers to calculations of
CAS pension costs made by the CMS Office of the Actuary, and the HPer Nationwide" column
represents an10unls that were reported on Nationwide's FACPs as having been charged to eMS
over the years. The aJllounts of CAS pension costs included in the Submission were apparently
                                                                                            (cont'd)
One Nationwide Plaza                      Counsel to all Nationwide companies and their
Columbus, OH 43215-2220                   subsidiaries and affiliates.
                                                                                             APPENDIXB
                                                                                              Page 19 of20




between calculations perfonned by a eMS actuary and those performed by a Nationwide actuary
does not mean that the amount of the variance is unallowable. It is well established within the
actuarial profession that, although calculations made by two actuaries may yield different results,
it does not necessarily follo\v that one of the two actuaries has erred. Rather, variances may be
attributable to the use of different, but nonetheless pemlissible, actuarial techniques.
Significantly, the GIG has not even tried to explain why its recalculation is proper and must be
used in place of Nationwide's calculations; nor has the GIG tried to explain why Nationwide's
calculations are improper.

       We understand that the ora commissioned the eMS actuaries' work product. In other
words, the GIG was the client of the eMS Office of the Act11ary for purposes of making those
pension cost calculations. Thus, this process does not appear to comply with the Hindependence"
requirements imposed by generally accepted Government auditing stalldards. 20 Specifically,
Section 3.04 of the Government Audit Standards states:

                Auditors and audit organizations have a responsibility to maintain
                independence so that opinions, conclusions, judgments, and
                recomnlendations will be impartial and will be viewed as inlpartial
                by knowledgeable third parties. Auditors should avoid situations
                that could lead reasonable third parties \vith knowledge of the
                relevant facts and circumstances to conclude that the audi tors are
                not able to maintain independence and, thus, are not capable of
                exercising objective and impartial judgment on all issues
                associated with conducting and reporting on the work.

In this case, the GIG is charged with auditing pension costs subnlitted by Nationwide to eMS.
But GIG then engaged C"MS - a party to the Medicare contracts - to make an "independent"
calculation of Nationwide's pension costs, and it then uncritically accepted as correct the results
of the eMS calculations. eMS has an obvious financial interest in n1axin1izing the extent to
which pension costs can be deemed unallo'wable and, as explained above, this is precisely v{hat
eMS has done.

                                            Conclusion




(... cont'd)

not factored into the OrG' s determination of the "$1,456,481 of unallowable Medicare pension
costs" discussed on that page.
20       Government auditing standards are published by the Government Accountability Office.
See   h1.t.Q:I/v~;ww.gao.gov/govaudJyb/2003/html/l'OC
                                                   .httnl.


One Nationwide Plaza                       Counsel to aU Nationwide companies and their
Columbus,OH 43215-2220                     subsidiaries and affiliates.
                                                                                           APPENDIXB
                                                                                            Page 20 of20




         Nationwide appreciates the opportunity to submit comments on the draft audit reports,
  and we look forward to maintaining a dialogue with your office and attempting to resolve.
  through infonnal means, all open issues.

          Thank you again for your continuing cooperation. Please let me know if you have any
  questions or comments.




                                                        Teresa J. Potts
                                                        AVP, Corporate Segment Controller
                                                        Nationwide Mutual Insurance Company
          Dated: April 3, 2008




One Nationwide Plaza
                                        Counsel to all Nationwide companies and lhelr
Columbus.OH 43215-2220
                                        subsidiaries and affiliates.
